"Medicare Part B Payments for Durable Medical Equipment Provided to Beneficiaries in Skilled Nursing Facilities,"(A-01-00-00509)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Medicare Part B Payments for Durable Medical Equipment Provided to Beneficiaries in Skilled Nursing Facilities," (A-01-00-00509)
July 23, 2001
Complete
Text of Report is available in PDF format (595 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out a major flaw in the claims processing systems of the four durable medical equipment regional
carriers (DMERC). Federal regulations prohibit Medicare Part B payments for durable medical equipment (DME) on behalf of
a beneficiary who is in a Medicare Part A skilled nursing facility (SNF) for an entire month. In such cases the Medicare
Part A reimbursement to the SNF would cover the DME services and the SNF would be responsible for paying the DME provider
or supplier. Our final report points out, however, that the four DMERCs made improper Medicare Part B payments for such
services during calendar years 1996 through 1998. We estimate the overpayments totaled approximately $35 million, and were
due, in part, to lack of adequate edits in the DMERCs claims processing systems. In addition, coinsurance payments
of approximately $9 million related to these DME items may have also been overpaid by the Medicaid program, supplemental
insurance programs, or by the beneficiaries themselves. In addition to recovery of the overpayments, we recommended that
the Centers for Medicare and Medicaid Services (CMS) work with the DMERCs to implement edits to identify and prevent such
payments in the future. The CMS generally concurred with our recommendations and has agreed to take corrective action.